               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




    Postal Service Financial Statements
         Audit − Washington, D.C.
     Headquarters for Fiscal Year 2013

                       Audit Report




                                              February 21, 2014

Report Number FT-AR-14-007
                                                                      February 21, 2014

                                                           Postal Service Financial
                                               Statements Audit − Washington, D.C.
                                                  Headquarters for Fiscal Year 2013

                                                         Report Number FT-AR-14-007


BACKGROUND:
U.S. Postal Service Headquarters             general classification of accounts. Also,
Finance establishes accounting policies      the Financial Testing Compliance group
and provides guidelines for recording        properly tested, documented, and
and reporting Postal Service financial       reported its examination of key financial
transactions. The Postal Service’s           reporting controls.
Financial Testing Compliance group is
responsible for examining key financial      However, the Postal Service did not
reporting controls.                          comply with all material laws and
                                             regulations. Specifically, it defaulted on
Our objectives were to determine             the required $5.6 billion prefunding
whether Headquarters Finance:                payment to the Retiree Health Benefit
                                             Fund and continued to suffer from a
   Accounting transactions were fairly      severe lack of liquidity in fiscal year
    stated, and selected controls were       2013 (which is expected to continue into
    designed and operating effectively.      fiscal year 2014).
   Ensured account balances followed
    the Postal Service’s general             Management also reported a significant
    classification of accounts consistent    deficiency related to the revenue,
    with that of the previous year.          pieces, and weight process in fiscal year
   Complied with laws and regulations       2012 but took sufficient corrective
    having a direct and material effect on   actions to remediate it as of September
    the financial statements taken as a      30, 2013. We did not propose any
    whole.                                   account balance adjustments.

We also determined whether the               WHAT THE OIG RECOMMENDED:
Financial Testing Compliance group           Because management took corrective
properly tested, documented, and             action to remediate the significant
reported its examination of key financial    deficiency, we are not making any
reporting controls.                          recommendations. We will continue to
                                             monitor prefunding payments in fiscal
WHAT THE OIG FOUND:                          year 2014.
Headquarters accounting transactions
were fairly stated and general ledger        Link to review the entire report
account balances conformed to the
February 21, 2014

MEMORANDUM FOR:             SCOTT G. DAVIS
                            ACTING VICE PRESIDENT, CONTROLLER




FROM:                       John E. Cihota
                            Deputy Assistant Inspector General
                             for Financial and Systems Accountability

SUBJECT:                    Audit Report – Postal Service Financial Statements Audit –
                            Washington, D.C. Headquarters for Fiscal Year 2013
                            (Report Number FT-AR-14-007)

This report presents the results of our audit of selected financial activities and
accounting records at Washington, D.C. Headquarters for the fiscal year ended
September 30, 2013 (Project Number 13BM004FT000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Denice Millett, director,
Finance, or me at 703-248-2100.

Attachment

cc: Julie S. Moore
    Corporate Audit and Response Management
Postal Service Financial Statements Audit −                                                                        FT-AR-14-007
Washington, D.C. Headquarters for Fiscal Year 2013




                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Liquidity and Retiree Health Benefit Fund Payments ...................................................... 2

Appendix A: Additional Information ................................................................................. 4

   Background ................................................................................................................. 4

   Objectives, Scope, and Methodology .......................................................................... 5

   Prior Audit Coverage ................................................................................................... 7
Postal Service Financial Statements Audit −                               FT-AR-14-007
Washington, D.C. Headquarters for Fiscal Year 2013



Introduction

This report presents the results of our audit of selected financial activities and
accounting records at U.S. Postal Service Washington, D.C. Headquarters for the fiscal
year (FY) ended September 30, 2013 (Project Number 13BM004FT000). Our objectives
were to determine whether Headquarters Finance accounting transactions were fairly
stated, and selected controls were designed and operating effectively; ensured account
balances followed the Postal Service’s general classification of accounts consistent with
that of the previous year; and complied with laws having a direct and material effect on
the financial statements taken as a whole. In addition, we determined whether the
Financial Testing Compliance group properly tested, documented, and reported its
examination of key financial reporting controls. See Appendix A for additional
information about this audit.

The Postal Reorganization Act of 1970, as amended, requires annual audits of the
Postal Service's financial statements. In addition, the Sarbanes-Oxley (SOX) law was
enacted in calendar year 2002 to strengthen public confidence in the accuracy and
reliability of financial reporting. Section 404 of SOX requires management to state its
responsibility for establishing and maintaining adequate internal controls over financial
reporting. The Postal Accountability and Enhancement Act of 2006 (Postal Act of 2006)
requires the Postal Service to comply with Section 404 of SOX. The Board of Governors
(Board) contracted with an independent public accounting firm (IPA) to express opinions
on the Postal Service's financial statements and internal controls over financial
reporting. Our audit augments the IPA’s opinions.

Conclusion

During our audit at Washington, D.C. Headquarters, we noted that:

   Accounting transactions were fairly stated in the general ledger, and selected key
    controls surrounding those transactions were designed and operating effectively.

   General ledger account balances conformed to the general classification of accounts
    of the Postal Service on a basis consistent with that of the previous year.

In addition, the Financial Testing Compliance group properly tested, documented, and
reported its examination of key financial reporting controls.

We did not propose any adjustments or identify any issues that were material to the
financial statements or that would affect the overall adequacy of internal controls.
However, the Postal Service did not comply with all laws and regulations having a direct
and material effect on the financial statements. Specifically, it defaulted on the
$5.6 billion prefunding payment to the Retiree Health Benefit Fund due
                                                     1
Fiscal Year 2013 Postal Service Financial Statements Audit −                                             FT-AR-14-007
 Washington, D.C. Headquarters


September 30, 2013, and continued to suffer from a severe lack of liquidity posture in
FY 2013. Management also reported a significant deficiency related to the revenue,
pieces, and weight (RPW) process in FY 2012 but took sufficient corrective action to
remediate it as of September 30, 2013.1

Furthermore, the IPA identified control deficiencies2 affecting Headquarters Finance that
were not in the scope of our audit and are not reported here. The IPA informed
management of these issues on November 14, 2013.

Liquidity and Retiree Health Benefit Fund Payments

As noted in its unqualified opinion on the FY 2013 financial statements dated
November 15, 2013, the IPA included an emphasis of matter3 referring to liquidity
concerns discussed in Postal Service Form 10-K4 disclosures and the expectation that
this trend will continue into FY 2014.

Further, in the IPA’s Report on Internal Control Over Financial Reporting and on
Compliance and Other Matters Based on an Audit of Financial Statements Performed in
Accordance with Government Auditing Standards, dated November 15, 2013, the
auditor did not identify any deficiencies in internal controls over financial reporting
considered to be material weaknesses or significant deficiencies as of
September 30, 2013. However, in its FY 2012 report, the IPA identified a significant
deficiency related to the RPW process and found the Postal Service took sufficient
corrective actions to remediate this deficiency as of September 30, 2013. As part of its
actions to address the significant deficiency, the Postal Service completed a root cause
analysis to further understand the nature of the deficiency, conducted enhanced training
for all Data Collection Technicians (DCTs), implemented new field level controls, and
put additional management review controls into practice to supplement existing
field-level DCT control procedures.

The IPA also noted one instance of non-compliance with laws and regulations that had
a material and direct effect on the financial statements. Specifically, the Postal Service
defaulted on required prefunding payments to its Retiree Health Benefit Fund totaling
$5.6 billion during FY 2013 and $11.1 billion during FY 2012. The Postal Service
defaulted on its payments due to insufficient cash resources and is pursuing legislation
to significantly reduce or eliminate the required payments.

Because management took corrective action to remediate the significant deficiency, we
are not making any recommendations in this report; however, we will continue to

1
  These issues were further discussed in our Opinion on the U.S. Postal Service’s Fiscal Year 2013 Closing Package
Financial Statements (Report Number FT-AR-14-003, dated December 16, 2013).
2
  A control deficiency exists when the design or operation of a control does not allow management or employees, in
the normal course of performing their assigned functions, to prevent or detect and correct misstatements timely.
3
  An emphasis of matter is included in an auditor’s report on financial statements (Form 10-K) to indicate a significant
uncertainty or other matter.
4
  A comprehensive summary report of the Postal Service’s performance that must be submitted annually to the U.S.
Postal Regulatory Commission.
                                                            2
Fiscal Year 2013 Postal Service Financial Statements Audit −               FT-AR-14-007
 Washington, D.C. Headquarters


monitor the prefunding payments to the Retiree Health Benefit Fund in FY 2014. Since
there were no recommendations, management chose not to formally respond to this
report.




                                                     3
Fiscal Year 2013 Postal Service Financial Statements Audit −                                              FT-AR-14-007
 Washington, D.C. Headquarters


                                  Appendix A: Additional Information

Background

Postal Service Headquarters Finance establishes accounting policies and provides
guidelines for recording and reporting Postal Service financial transactions. The Board
contracted with an independent public accounting firm to provide overall opinions on the
Postal Service's financial statements and internal controls over financial reporting. The
Postal Service’s Financial Testing Compliance group is responsible for examining key
financial reporting controls.

The RPW system is the primary probability sampling system that estimates revenue,
volume, and weight for most classes of mail and extra services. Management uses test
data to develop new rates, assist in budget preparation, conduct management studies,
and support management decisions concerning mail operations. DCTs observe
employee work activity, sample live mail, and collect data at randomly selected sites;
record the information on laptop computers; and transmit it for review. The data
collectors record various mailpiece characteristics, such as revenue, weight, shape,
indicia, barcode, postmark date, origin, and mail class. The Postal Service also relies on
statistical programs’ sample data to protect revenue and to estimate stamp usage for
calculating Postage in the Hands of the Public.5

The Postal Service must pay about $5.6 billion annually into the Retiree Health Benefit
Fund6 to prefund future health care benefits obligations.7 However, these annual
payments, coupled with declining revenue, have tested the Postal Service’s ability to
meet its operational and legal obligations. As a result, the Postal Service continued to
suffer from a severe lack of liquidity in FY 2013.

We will issue separate financial statement audit reports for Eagan Accounting Services,
San Mateo Accounting Services, and St. Louis Accounting Services. Further, in addition
to the overall opinions on the Postal Service's financial statements and internal controls
over financial reporting, the Board’s IPA issued a separate report on its consideration of
the Postal Service's internal controls and its test of compliance with certain provisions of
laws, regulations, contracts, and other matters. The purpose of that report was to
describe the scope of testing of internal controls over financial reporting and compliance
and the results of that testing, not to provide an opinion on internal controls over
financial reporting or on compliance.8 The OIG will also issue a separate report for the
audit of FY 2013 information system controls at the Eagan, San Mateo, and St. Louis
information technology and accounting service centers; and the Raleigh ITSC.

5
  The process of deferring the recognition of revenue for postage purchased but for which services have not yet been
provided.
6
  Postal Act of 2006.
7
  The Postal Service has not yet paid the $5.5 billion for FY 2011, the $5.6 billion for FY 2012, or the $5.6 billion for
FY 2013.
8
  In addition to the IPA's work, these reports encompass work the U.S. Postal Service Office of Inspector General
(OIG) performed at headquarters, three integrated business systems solution centers, field sites, and the Raleigh
Information Technology Service Center (ITSC).
                                                            4
Fiscal Year 2013 Postal Service Financial Statements Audit −                                           FT-AR-14-007
 Washington, D.C. Headquarters



Objectives, Scope, and Methodology

The objectives of the audit were to determine whether Headquarters Finance:9

   Accounting transactions were fairly stated in the general ledger and selected
    controls surrounding those transactions were designed and operating effectively.

   Ensured general ledger account balances conformed to the general classification of
    accounts of the Postal Service on a basis consistent with that of the previous year.

   Complied with laws and regulations having a direct and material effect on the
    financial statements taken as a whole.

In addition, we determined whether the Financial Testing Compliance group properly
tested, documented, and reported its examination of key financial reporting controls.

As part of our audit, we reviewed internal controls, processes, and significant
headquarters accounts (for example, workers' compensation), manual journal vouchers
(JVs),10 and laws and regulations. We verified Board travel and miscellaneous
expenses totaling about $153,000 and external professional fees totaling about
$36,000; and tested about $84,000 of officers' travel and representation expenses. We
will issue separate reports for audits of FY 2013 Board travel and miscellaneous
expenses and officers’ travel and representation expenses.

As part of our audit, we assessed internal controls, tested transactions, and verified
account balances. We conducted this audit from January 2013 through February 201411
in accordance with the standards of the Public Company Accounting Oversight Board
(PCAOB) and the standards applicable to financial audits contained in the Government
Auditing Standards issued by the comptroller general of the U.S. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
limit audit risk to a level that is, in our professional judgment, appropriate for supporting
the overall audit opinion on the financial statements. Those standards also require
considering the results of previous engagements and following up on known significant
findings and recommendations directly related to the objectives of the audit. An audit
also requires sufficient understanding of internal controls to plan the audit and
determine the nature, timing, and extent of audit procedures to be performed. We
believe the evidence obtained provides a reasonable basis for our conclusion based on
our audit objectives.


9
  The IPA maintains overall responsibility for testing and reviewing significant headquarters accounts and processes.
The OIG coordinated audit work with the IPA to ensure adequate coverage.
10
   Statement on Auditing Standards (SAS) Number 99, Consideration of Fraud in a Financial Statement Audit, as
amended by SAS 113, Omnibus 2006, requires auditors to perform certain tasks to address the risk of management
override of internal controls. To address such situations, SAS Number 99 requires auditors to test the
appropriateness of journal entries recorded in the general ledger and other adjustments.
11
   The scope of our audit was October 1, 2012, to September 30, 2013.
                                                             5
Fiscal Year 2013 Postal Service Financial Statements Audit −                                        FT-AR-14-007
 Washington, D.C. Headquarters


We supported the IPA in obtaining reasonable assurance about whether the financial
statements were free of material misstatement (whether caused by error or fraud).
Absolute assurance is not attainable because of the nature of audit evidence and the
characteristics of fraud. Therefore, an audit conducted in accordance with the PCAOB
and Government Auditing Standards may not detect a material misstatement. However,
the external auditors and the OIG are responsible for ensuring that appropriate Postal
Service officials are aware of any significant deficiencies that come to our attention. We
provided an earlier draft copy of this report to management on January 13, 2014, and,
because we did not make recommendations, management chose not to meet to discuss
the report contents.

We relied on computer-generated data from several Postal Service financial systems,
including:

    Electronic Travel Voucher System.12
    Workers' Compensation Master File.
    Accounting Enterprise Data Warehouse Reporting.13

We assessed the reliability of these systems' data by performing specific internal control
and transaction tests, including tracing selected financial information to supporting
source records. For example, we traced workers' compensation master file data to
paper source documents for a random sample of 60 cases. We determined the data
were sufficiently reliable for the purposes of this report.




12
   The online application used to create work travel expense reports, electronically submit them to authorized
approvers, and track reimbursement status.
13
   A reporting technology in the areas of accounts payable, complement, finance number control master, general
ledger and financial performance, payroll summary, property and equipment, and standard accounting for retail.
                                                           6
 Fiscal Year 2013 Postal Service Financial Statements Audit −                   FT-AR-14-007
  Washington, D.C. Headquarters


 Prior Audit Coverage

                                                                   Final
                                         Report                   ReportMonetary
           Report Title                  Number                    Date  Impact
Fiscal Year 2012 Postal Service       FT-AR-13-007               1/4/2013 None
Financial Statements Audit –
Washington, D.C. Headquarters
Report Results: We reported two instances of noncompliance. One related to the
suspension of the Postal Service’s obligation to the Federal Employee Retirement
System (FERS) and the other to a default on two required prefunding payments to
the Postal Service's Retiree Health Benefit Fund. The Postal Service resumed the
FERS obligation and repaid amounts previously suspended. The Postal Act of 2006
contains no provisions addressing a prefunding payment default. We did not propose
any adjustments; however, during the year, we reviewed controls over financial
reporting. Based on the results, we did not make any recommendations in this report.
As a result, management chose not to respond formally to this report.

Fiscal Year 2011 Postal Service             FT-AR-12-005        12/12/2011   None
Financial Statements Audit –
Washington, D.C. Headquarters
Report Results: We did not propose any adjustments; however, we identified a
control deficiency regarding manual JV processing. Because management took
corrective action, we did not make any recommendations.




                                                      7
